<html>
<title> - NOMINATIONS OF THE HONORABLE STEVEN D. DILLINGHAM AND MICHAEL M. KUBAYANDA</title>
<body><pre>[Senate Hearing 115-605]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-605

     NOMINATIONS OF HON. STEVEN DILLINGHAM AND MICHAEL M. KUBAYANDA

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             SECOND SESSION

                               __________

       NOMINATIONS OF HONORABLE STEVEN DILLINGHAM, NOMINEE TO BE
        DIRECTOR OF THE CENSUS, U.S. DEPARTMENT OF COMMERCE AND
 MICHAEL M. KUBAYANDA, NOMINEE TO BE A COMMISSIONER, POSTAL REGULATORY 
                               COMMISSION

                               __________

                            OCTOBER 3, 2018

       Available via the World Wide Web: http://www.govinfo.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
                [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                
               
                  U.S.GOVERNMENT PUBLISHING OFFICE  
                  
32-492 PDF              WASHINGTON : 2019  


               

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California
JON KYL, Arizona                     DOUG JONES, Alabama

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
         Catherine A. Bailey, Director of Governmental Affairs
              Jennifer L. Selde, Professional Staff Member
               Margaret E. Daum, Minority Staff Director
                  Michael J. Broome, Minority Counsel
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk
                     
                     

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator McCaskill............................................     3
    Senator Lankford.............................................    10
    Senator Carper...............................................    13
    Senator Hassan...............................................    16
    Senator Harris...............................................    19
    Senator Hoeven...............................................    21
    Senator Jones................................................    23
    Senator Daines...............................................    29
Prepared statements:
    Senator Johnson..............................................    33
    Senator McCaskill............................................    34

                               WITNESSES
                       Wednesday, October 3, 2018

Hon. Steven Dillingham, Nominee to be Director of the Census, 
  U.S. Department of Commerce
    Testimony....................................................     7
    Prepared statement...........................................    38
    Biographical and financial information.......................    40
    Letter from the Office of Government Ethics..................    65
    Responses to pre-hearing questions...........................    68
    Responses to post-hearing questions..........................   102
Michael M. Kubayanda, Nominee to be a Commissioner, Postal 
  Regulatory Commission
    Testimony....................................................     9
    Prepared statement...........................................   118
    Biographical and financial information.......................   121
    Letter from the Office of Government Ethics..................   142
    Responses to pre-hearing questions...........................   146
    Responses to post-hearing questions..........................   180

                                APPENDIX

Income statement charts submitted by Senator Johnson.............   189
Census inflation-adjusted chart submitted by Senator Johnson.....   190
Census cost per household chart submitted by Senator Johnson.....   191
Letter to POTUS submitted by Senator Johnson.....................   192
Harris Letter and Response submitted by Senator Johnson..........   194
Postal Rate Increase Data Chart submitted by Senator Johnson.....   199
Postal Data Chart submitted by Senator McCaskill.................   201
Letter from Electronic Privacy Information Center................   203
Letter from the Census Project...................................   207

 
                           NOMINATIONS OF THE
        HONORABLE STEVEN D. DILLINGHAM AND MICHAEL M. KUBAYANDA

                              ----------                              


                       WEDNESDAY, OCTOBER 3, 2018

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Hoeven, Daines, 
McCaskill, Carper, Peters, Hassan, Harris, and Jones.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order.
    Today we are considering the nominee to be the Director for 
the U.S. Census Bureau and a nominee to be the Commissioner for 
the Postal Regulatory Commission (PRC).
    First of all, I want to thank the nominees for your 
testimony for taking the time here today to testify. I also 
want to thank you for spending some time in my office. I 
enjoyed our conversations, and I think what I certainly 
determined from that is we have two nominees here that are, 
first, very knowledgeable and I think very well qualified for 
these positions. So I appreciate the President has picked I 
think two exceptional candidates for these two very important 
positions.
    I would ask that my written opening statement be entered 
into the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 33.
---------------------------------------------------------------------------
    A hearing would not be a hearing under my chairmanship 
without a couple of charts. So I want to just quick start out 
with one on the U.S. Postal Service (USPS).\2\
---------------------------------------------------------------------------
    \2\ The chart referenced by Senator Johnson appears in the Appendix 
on page 189.
---------------------------------------------------------------------------
    This is just a one-page income statement that I have 
developed over a number of years, trying to figure out exactly 
what is the financial condition of the U.S. Postal Service, and 
it is just three simple columns that gives you the income 
statement for 2007, and then 10 years later, 2017, and then 
gives you a total, 10-year.
    What I find interesting about it is I think this really 
does lay out what the issue is. In 2007, the Postal System had 
a $3 billion operating income, $4.7 billion in 2017, but for 
the full 10 years lost about $1.4 billion on an operating 
basis.
    The big problem is the pension plan, and with the 2006 
Postal Reform that required prefunding, that was a total of 
$62.6 billion, which is why you show a $63.9 billion, 10-year 
complete loss.
    Now, you also had appreciation. That adds some cash back, 
and of course, the Postal System is defaulting on that 
prefunding. So, in the end, it looks like the Postal System has 
generated $8.5 billion over 10 years, but again, this is 
because we have not addressed the problem, which is the 
unfunded liability in the retiree health benefits as well as 
their pension.
    So it is actually pretty simple to take a look at. I am not 
saying the solution is very simple, but again, I have a copy of 
this at the dais for all of our Senators.
    The next chart really speaks to the issues of the Census 
Department,\1\ and from my standpoint, I think this is the 
problem right here.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 190.
---------------------------------------------------------------------------
    And I am going to focus really on 1990 Census because by 
1990, most of the transfer programs were in place. Most of what 
government was doing that requires information, the kind of 
data that Census collects, were in place. So these are 
inflation-adjusted dollars.
    In 1990, we spent a little under $5 billion taking the 
Census. That is the Census cost. Best-case scenario right now, 
using 2020 methods, the technology, we are estimating it is 
going to be three times that total cost, $15.6 billion.
    Again, we have seen the Internet. We have seen information 
technology (IT). That cost, if anything, should be reduced, and 
of course, we have had population growth as well.
    The next chart\2\ I think shows that that is not the 
problem. In 1990, the cost per household was $45. 1970 was only 
$17. But, again, I am moving forward to 1990 when all these 
programs were in place. Best-case scenario is looking like it 
would be $107, more than double, on a per-household basis.
---------------------------------------------------------------------------
    \2\ The chart referenced by Senator Johnson appears in the Appendix 
on page 191.
---------------------------------------------------------------------------
    So, to me, that is the primary problem with the Census, and 
that is the question I am asking. Why? Why is the total dollar 
cost three times? Why is the per-household cost double what it 
was in 1990? What has changed so significantly that is driving 
that really ridiculous cost figure when in fact with all the 
advances of information technology, certainly the cost per 
household I think should have declined? We have gotten more 
productive in just about every area of our economy. I do not 
understand this in the Census.
    The other thing, I do want to cover something up front. I 
am sure this will come up during the hearing, and it is the 
whole issue of the citizenship question.
    I want to read something into the record here. On April 10, 
2018, this Committee held a roundtable for Committee Members 
with representatives of both Department of Commerce and the 
Census Bureau reading the 2020 Census content, including the 
addition of a citizenship question in the 2020 questionnaire. 
At the Roundtable, Acting Census Director Ron Jarmin told the 
Committee that there was no definitive evidence that the 
addition of a citizen question would significantly reduce 
response rates and that other questions such as household 
impact had proven to have a greater impact on response rates 
for the American Community Survey (ACS).
    Now, I understand the citizenship question is a 
controversial issue, and reasonable people can come to 
different conclusions, but I would like to emphasize for the 
purposes of this hearing that Dr. Dillingham was not at the 
Census Bureau when this decision was made. Even if confirmed, 
Dr. Dillingham will not have the ability to change this 
decision because Congress charges Secretary of Commerce with 
the authority to determine the Census content. This is, again, 
one of those powers that Congress has delegated to the 
Administration. This is well within the Secretary of Commerce's 
jurisdiction to create the question and determine what it is.
    Now, currently, there is an ongoing court case to determine 
is Secretary Wilbur Ross acted within his authority to add the 
citizenship question. So rather than argue about an issue that 
will be fully litigated in the courts, it is my sincere hope 
that this hearing will focus on whether or not Dr. Dillingham 
is qualified to lead the Census Bureau.
    We are less than 18 months out from the Census Day, and my 
colleagues and I, including the Ranking Member, have been 
asking for the President to nominate a qualified individual to 
serve as a Census Bureau Director since the position was 
vacated last June, considering the nomination of the Census 
Bureau Director is presently the most important step this 
Committee can take to put the 2020 Census on the path for 
success.
    In addition to that, on September 20, I received a letter 
from Senator Harris, Senator Carper, Senator Hassan, and 
Senator Peters asking for more oversight hearings. I would like 
to enter that letter into the record\1\ as well as my response 
the following day on September 31.
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator Johnson appears in the 
Appendix on page 194
---------------------------------------------------------------------------
    And so with that, I will turn it over to Senator McCaskill.

           OPENING STATEMENT OF SENATOR MCCASKILL\2\

    Senator McCaskill. Yes. Let me start out with the Postal 
Service chart.\3\ It would be really helpful if we could huddle 
before chart time.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 34.
    \3\ The chart referenced by Senator McCaskill appears in the 
Appendix on page 189.
---------------------------------------------------------------------------
    My staff does not believe that this is accurate, and we 
have a difficult time finding, tracing back the numbers that 
are on it.
    So I would offer into the record\4\ something that is much 
more complicated but gives sources for the numbers, and I think 
the important thing to realize is last year, the Postal Service 
was profitable, had it not been for prefunding issues.
---------------------------------------------------------------------------
    \4\ The information referenced by Senator McCaskill appears in the 
Appendix on page 201.
---------------------------------------------------------------------------
    So I am anxious for us to fix postal, and that is the most 
important thing we should be doing right now and with 
comprehensive postal legislation.
    The House has gotten further with their work than we have, 
and maybe we can get together, our staffs, after the hearing, 
and we can come up with a chart that we can go into the----
    Chairman Johnson. Sure.
    Senator McCaskill. I am sure we can find agreement because 
we usually do when we sit down together. Let us see if we 
cannot get together and see if we cannot come up with a Profit 
and Loss (P&L) one that we can agree on.
    Chairman Johnson. Sure.
    Just real quick, this was all sourced by the United States 
Postal Service annual 10-Ks, and we have been working with a 
number of offices, just trying to hone this so it is correct. I 
want to make sure it is completely correct information.
    Senator McCaskill. Yes. Well, we can probably get that 
figured out.
    Chairman Johnson. OK.
    Senator McCaskill. In the meantime, I would like to put 
this much more complex document into the record.\1\
---------------------------------------------------------------------------
    \1\ The document referenced by Senator McCaskill appears in the 
Appendix on page 202.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator McCaskill. Thank you so much.
    And I agree with you on the Census. IT acquisition is the 
black hole of government spending, no matter where it is, and I 
have spent a lot of time on this at the Pentagon. That would 
drive the Chairman crazy if he began trying to do all of his 
charts and his financials over at the Pentagon.
    IT acquisition has been a huge problem in government, 
typically because we cannot compete for the same talent. There 
has been such a demand for talent in the IT sector that 
government does not pay what the private sector does. So, as a 
result, we farm it all out, and if you do not know enough to 
know what you are buying, you defer to the people you are 
buying it from. And guess what the people you are buying it 
from want to make it? Really profitable for them and very 
expensive, and they want to capture agencies with a build-from-
scratch system that they are then wedded to forever as opposed 
to ever turning to off-the-shelf software that would be 
available.
    I do not know because I have not taken a deep dive into 
those numbers, but I have a feeling that is probably where our 
cost increases have come from is wasting money over efforts to 
acquire a specialized built-from-scratch IT system that turned 
out not to be efficient and/or effective.
    I do think both of these nominations are very important. I 
agree that the decision today on Mr. Dillingham is on his 
qualifications and not what has occurred over the last year.
    I do think it is very important that we get to the bottom 
of whether or not this Committee was misled by Secretary Ross. 
We were clearly told that the reason the question was included 
was because the Justice Department asked for it. Facts are now 
coming to light that would indicate that that perhaps was not 
entirely truthful.
    And I think if we have a moment that is as important as 
that moment is in terms of oversight, if we are not getting the 
full truth on questions that are pretty important, I think that 
is something this Committee needs to take a closer look at, and 
I am not advocating we interfere in the litigation. But it was 
made very clear to this Committee, that the reason the question 
was included was it was requested by Justice. Well, now it is 
not so clear. It appears to me that a political decision was 
made to include the question, and then they sought justice to 
ask for it so they could hang their hat on that peg. That is 
not being honest with us or the American people, and it 
certainly demands oversight.
    And so we can let the lawsuit continue, but that is why we 
are in this mess is because I believe that we were not given 
all the facts at the point in time that we asked for them. And 
I do not put that on the roundtable participants. I put that 
squarely with Secretary Ross.
    I know the Census Bureau is approaching the most critical 
period of a 10-year Census cycle. I frankly have a great deal 
of sympathy for someone who is being asked to pick up the reins 
at this point because I think we have a significant problem. I 
think we need to reassure the American people that their 
information is protected and private, especially in this era of 
privacy concerns.
    I would certainly comment to you, Mr. Dillingham, if you 
are confirmed, that that be one of the things that you focus 
on, not just the Public Service Announcements (PSAs) asking 
people to participate, but stressing the privacy of their 
information because I understand why telling people how much 
money you make is a scary thing for people to do in a Census, 
giving the government that number, although I think they give 
it to the Internal Revenue Service (IRS). But the question is, 
Are the two numbers the same? And that is probably why they are 
reluctant. But I think that reassurance that the information is 
private under law, that it is a criminal offense for their 
information to be shared, I think is very important.
    I am anxious to hear your plans for outreach in terms of 
counting difficult populations to count.
    Mr. Kubayanda, it is good to see you also. I feel very 
strongly that the Postal Regulatory Commission has an important 
role in our Postal Service. You come with a long record of 
public service, particularly impressive expertise in the postal 
issues.
    I know you left the Inspectors General (IGs) office 3 years 
ago, and I am pleased that you are willing to return to public 
service. It is a little bit like fingernails on a blackboard 
sometimes when I look at someone like you that people like you 
are considered the swamp. You have labored hard and honorably 
in the public sector. You left the public sector, and now you 
are willing to come back and provide an important public 
service. And I think that should be admired, not denigrated, 
and so thank you for that.
    I am really worried about the quality of rural mail 
service. I hear from people all the time in Missouri about the 
increasing service delays, and the key to rural Missouri in 
terms of them keeping people in their communities, keeping the 
next generation in their communities, is in fact reliable mail 
service because many of them are starting small businesses. The 
one-two partnership that is essential for rural Missouri is 
high-speed broadband combined with reliable mail service. That 
is where you can start businesses and allow businesses to 
thrive, no matter where you live, if you have those two 
ingredients.
    The universal service obligation (USO) is one of the most 
important duties of the Postal Service. I would like to hear 
from you about what you think should be done to safeguard and 
improve the quality of mail service in rural America.
    Obviously, the financial condition of the Postal Service is 
a problem. The accumulated losses are a problem, and this 
deficit is a threat to the future of the Postal Service.
    I know this. That if we were to make the mistake of trying 
to privatize Postal Service, then who would end up with the 
most expensive service, the least reliable service, and the 
most sporadic service would in fact be that last mile. We have 
seen it time and time again. The private business model will 
not want to lose money on that one farmhouse down a mile and a 
half off the blacktop road. They will not want to lose that 
money, and so we would be stepping in, anyway, in order to 
provide universal service.
    Do we want to give up the profitable part of our 
architecture when we are still going to have to own the non-
profitable part of our architecture? And that does not make 
sense to me. It seems to me we should give the Postal Service 
the tools it needs to thrive and succeed for many years to come 
while still respecting the universal postal delivery obligation 
that is set forth in the law.
    Thank you both for being here today, and I look forward to 
your testimony.
    Chairman Johnson. Thanks, Senator McCaskill.
    My final comment to Mr. Dillingham is if confirmed--and we 
are going to do everything we can to speed this process up--you 
need to concentrate on getting the Census completed accurately 
and with as high a response rate as possible. The whole cost 
issue, that is kind of for after the Census because we start 
gearing up for 2030 and addressing that.
    Again, the questionnaire itself, that is being handled by 
others. You have a big job ahead of you, and again, our job is 
to get you on that job as quickly as possible.
    It is the tradition of this Committee to swear in 
witnesses, so if you will both stand and raise your right hand. 
Do you swear the testimony you will give before this Committee 
will be the truth, the whole truth, and nothing but the truth, 
so help you, God?
    Mr. Dillingham. I do.
    Mr. Kubayanda. I do.
    Chairman Johnson. Please be seated.
    Our first nominee is the Honorable Steven Dillingham. Mr. 
Dillingham is currently serving as the Director for the Office 
of Strategic Information, Research, and Planning at the Peace 
Corps. He has an over 40-year career in Federal Government and 
policy research, including serving as the Director of two 
Federal statistical agencies--the Bureau of Transportation 
Statistics and the Bureau of Justice Statistics (BJS). And I 
hope I do not say that too often. [Laughter.]
    Mr. Dillingham.

TESTIMONY OF THE HONORABLE STEVEN DILLINGHAM,\1\ NOMINEE TO BE 
      DIRECTOR OF THE CENSUS, U.S. DEPARTMENT OF COMMERCE

    Mr. Dillingham. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dillingham appears in the 
Appendix on page 38.
---------------------------------------------------------------------------
    Before I begin, I would like to introduce my wife, 
Kimberly; my daughter Abigail; my youngest uncle and aunt, John 
and Debbie Dillingham and very much appreciate them being here 
today.
    Mr. Chairman, Ranking Member, and Committee Members, I 
would like to share with you an experience some years ago, when 
my wife Kimberly and daughter Abigail joined me at my 
confirmation hearing to be the Director of the Bureau of 
Justice Statistics.
    That hearing was before the Senate Judiciary Committee, 
chaired by the Honorable Joe Biden. As he lifted his gavel to 
close the hearing, my infant daughter began to cry. Senator 
Biden smiled and remarked, ``Let the record show that Abigail 
has the last word.'' While quite memorable, she is an adult 
now, and I am not expecting her to repeat that performance. 
[Laughter.]
    Let me begin by acknowledging the importance of public 
service to my family and me. My wife and her mother were public 
school teachers. My daughter also is a public school teacher. 
She saves her money for summer travel as a volunteer teacher in 
villages of developing countries.
    My father entered military service at age 17 during World 
War II and retired from the enlisted ranks after two more 
decades of service. He named his three sons for military 
leaders.
    My father-in-law retired as a Lieutenant General following 
his career as a defense strategist and analyst. The Air Force 
annually bestows a leadership award in his honor. In our 
household, public service is a noble family tradition.
    It is an honor to appear before you today and to be 
considered for this position of important public trust. I am 
grateful to President Trump, Secretary Ross, and Under 
Secretary Karen Dunn Kelley, and all who support my nomination 
and who have assisted me.
    I thank Members of this Committee for your consideration.
    If confirmed, I pledge to serve with the professionalism 
and the integrity that you expect and the Nation deserves.
    My public service includes directing two Federal 
statistical agencies and several research offices. I also have 
been manager for large and small businesses, non-profits, and 
universities. My work has ranged from enforcing whistleblower 
protections to analyzing program results. Historically, the 
talents of Bureau Directors have served them well. If 
confirmed, mine should also.
    Challenges facing the Bureau are numerous. The Decennial 
Census presents an immediate need. If confirmed, I will be 
dedicated to ensuring that the workforce is ready, willing, and 
able to accomplish the Bureau's mission as the leading provider 
of quality information on the Nation's people and economy.
    I am mindful for the need to work with this Committee, the 
Government Accountability Office (GAO), the Office of Inspector 
General (OIG), and others. I will support a workforce committed 
to mission, principles, and accountability.
    If confirmed, my focus areas will include, one, achieving 
results. I am committed to providing leadership in fulfilling 
the Bureau's mission and performing its constitutional and 
statutory responsibilities while mitigating risks.
    Two, maintaining organizational and professional integrity. 
I pledge to support a Federal statistical agency culture of 
principles and practices grounded in relevance to policy 
issues, credibility among data users, trust among data 
providers, and independence from improper influences.
    Three, fostering workforce excellence. I will lead efforts 
to support an engaged and diverse workforce that provides 
quality products and services, bolsters employee morale, and is 
recognized for performance.
    Let me provide a personal perspective on data collection. A 
decade ago, I volunteered for civilian service in Iraq to help 
restore peace, rebuild the Nation's government and economy, and 
establish rule of law. My duties included strategic planning 
and establishing a system of data collection for its justice 
system under challenging and unsafe conditions.
    The work involved Iraqis compiling provincial data and 
delivering it to the Justice Ministry in Baghdad, which was a 
target of bombings and attacks. Iraqi officials risked life and 
limb traveling in unsafe and hazardous conditions across 
deserts stretching hundreds of miles to deliver the data. At 
the Justice Ministry, an office staffed with dedicated Iraqi 
women professionally compiled the data. On my final visit to 
that office, the Iraqi female officials proudly presented their 
miraculously published and quite professional statistical 
results.
    Then, in contravention of their custom, they all shook our 
hands.
    Accurate data is an essential underpinning for 
representative and responsive government, as well as a thriving 
economy. While the Census Bureau faces challenges, I know that 
it has the talent and commitment for meeting them.
    I hope that you find me worthy to contribute. I look 
forward to your questions.
    Chairman Johnson. Thank you, Mr. Dillingham, and I do want 
to welcome your family and not only thank you for your service 
but thank you for theirs as well. You will probably see your 
loved one a little bit less if he gets confirmed for this 
position.
    Our next nominee is Michael Kubayanda. Mr. Kubayanda is 
currently serving as a privacy officer and board member for 
access mobile International, an electronic health services 
technology startup, serving communities in the United States 
and Africa. He previously worked for the United States Postal 
Service Office of the Inspector General, House Committee on 
Oversight and Government Reform, and the United States Postal 
Service.
    Mr. Kubayanda, I would also encourage you to introduce your 
family. I want to thank them for their attendance and their 
willingness to kind of sacrifice time with you in your 
important position.

      TESTIMONY OF MICHAEL M. KUBAYANDA,\1\ NOMINEE TO BE 
           COMMISSIONER, POSTAL REGULATORY COMMISSION

    Mr. Kubayanda. Good morning Chairman Johnson, Ranking 
Member McCaskill, and Members of the Committee. Thank you for 
inviting me to testify regarding my nomination to the Postal 
Regulatory Commission.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kubayanda appears in the Appendix 
on page 118.
---------------------------------------------------------------------------
    Unfortunately, my family was unable to be here. My spouse 
is attending to important prior commitments overseas, and my 
mother was unable to travel at this time. But they are very 
excited about my nomination as well.
    I have been fortunate to work with this Committee in 
earlier positions I have held and I am honored by the 
opportunity to do so again. I have built solid relationships 
with members of your staff over the years. I have been 
impressed by their dedication and knowledge, and I understand 
the importance of providing accurate and timely information to 
Congress. I believe this ensures better oversight and better 
public policy. If confirmed, this will be a high priority for 
me.
    I have several years of experience working on postal reform 
and oversight, most recently at the U.S. Postal Service, Office 
of Inspector General. I am familiar with many of the key issues 
and organizations in the field. I believe my understanding of 
adjacent and complementary issues, such as technology, can also 
be helpful.
    We appear to be close to an inflection point on postal 
issues. On one hand, declining mail volume and legal mandates 
contribute to ongoing financial losses. On the other hand, e-
commerce and new consumer technologies are transforming 
delivery services and providing options to improve customer 
service. It is vital that we in the postal community understand 
these changes and how they impact the Postal Service.
    We should also try to understand how consumer expectations 
are changing in this era and ensure that services and 
regulations are responsive to these expectations. I have looked 
at these issues from many perspectives, especially at the OIG. 
I believe that this background has prepared me well to address 
the issues facing the postal sector now and in the future.
    I view a Commissioner's role as similar to that of a State 
utility regulator. The Commission must bring to bear the 
necessary analytical skills to scrutinize the operations and 
finances of the Postal Service and ensure compliance with the 
law and public policy, as established by Congress.
    In addition, the Commission should support transparency by 
making sure that its findings are readily accessible to 
stakeholders and the public at large.
    Key technical matters facing the Commission include 
negotiated service agreements, Post Office appeals, and complex 
issues of economic regulation.
    The Commission will issue a final order on the 10-year 
review of the system for regulating market dominant products 
under the PAEA. It is also looking at the proper contribution 
of competitive products, such as e-commerce packages, to the 
institutional costs of the Postal Service. With this sizable 
and important workload, the Commission should continue to 
emphasize efficiency and responsiveness to stakeholders.
    I believe the Commission's emphasis on strategic planning 
will help it prioritize and execute against this agenda. If 
confirmed, I look forward to working with Chairman Robert Taub 
and Commissioners Nanci Langley, Tony Hammond, and Mark Acton 
to do so.
    Thank you for considering my nomination, and I look forward 
to answering your questions.
    Chairman Johnson. Thank you, Mr. Kubayanda.
    There are three questions the Committee asks of every 
nominee for the record, and so I will ask the question. Then I 
will just go to both of you for your answer.
    First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated? Mr. 
Dillingham.
    Mr. Dillingham. No, Mr. Chair.
    Chairman Johnson. Mr. Kubayanda.
    Mr. Kubayanda. No, Mr. Chairman.
    Chairman Johnson. Do you know if anything personal or 
otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated? Mr. Dillingham.
    Mr. Dillingham. No, Mr. Chairman.
    Chairman Johnson. Mr. Kubayanda.
    Mr. Kubayanda. No, I do not.
    Chairman Johnson. Do you agree without reservation to 
comply with any request or summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed? Mr. Dillingham.
    Mr. Dillingham. Yes, Mr. Chairman.
    Chairman Johnson. Mr. Kubayanda.
    Mr. Kubayanda. Yes, I do.
    Chairman Johnson. Thank you.
    I will reserve my questioning until the end out of respect 
for my colleagues' time. Senator McCaskill.
    Senator McCaskill. I will defer also.
    Chairman Johnson. Then Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you, Mr. Chairman and Ranking 
Member, for that.
    Mr. Kubayanda, let me ask you a little bit about the Postal 
Regulatory Commission and the hard issues that you are facing 
at this point and the very difficult decisions. What ideas do 
you bring to bear on reforms of the system that will help with 
pricing efficiency? If I talk to anyone in my State about 
postal, if they work in the postal office, it is about its 
ability to be able to be sustained and the prefunding for 
health. If I talk to anyone else, it is the price of the stamp.
    So let me ask you the question about pricing because this 
will be a big issue for you. Do you have ideas that you are 
walking into with efficiency to help offset pricing issues?
    Mr. Kubayanda. The Commission addressed this issue with a 
Notice of Proposed Rulemaking late last year, and I am aware of 
their work on this. I applaud the Commission for taking on this 
really difficult issue. It is essential to the financial health 
of the Postal Service.
    I think it is important that I come in with an open mind in 
reviewing the Notice of Proposed Rulemaking. The Commission is 
currently reviewing comments from stakeholders on this issue 
before issuing a final rule.
    So, if confirmed, that will be at the top of my priority 
list to assist the Commission in getting out that final rule.
    I have worked on this issue extensively in the past. So it 
is something that I bring some knowledge to, and I do think it 
is important. Under Title 39, there are objectives and factors 
that are required to be considered in the establishment of a 
rate-making system. There are just some common sense issues 
that I think we need to look at that a lot of people have 
identified.
    Senator Lankford. OK. Well, stay on the common sense side 
of that as well.
    One of the big issues facing the entire country is the 
amount of fentanyl coming through the mail at this point. There 
has been a lot of emphasis on trying to detect that. Help me 
understand your perspective on what can be done and should be 
done trying to pick up illicit fentanyl coming through the 
mail.
    Mr. Kubayanda. I understand that there has been some recent 
legislation on this issue sponsored by Senator Portman from my 
home State of Ohio. I have not worked on that issue in great 
detail, but I know my former colleagues at the OIG have been 
very involved with that and with the new Governor. David 
Williams, former U.S. Postal Service Inspector General and 
current member of the Postal Board of Governors, has also been 
personally involved in that issue.
    I know the Postal Service, the Inspection Service and the 
Office of Inspector General all coordinate with the Department 
of Homeland Security (DHS) and with other Federal law 
enforcement agencies on this issue. If confirmed, it is 
something that I realize is a great priority, and I hope to 
work with your office on making sure that we interdict 
fentanyl.
    Senator Lankford. Yes. We look forward to that. We have 
added additional funding through the Financial Services and 
General Government (FSGG) appropriations for this year toward 
the Inspector General's office to be able to deal with this and 
the ongoing investigations on every layer, but this is not just 
a machine to be able to detect it coming in. It is a much 
broader issue, and we look forward to getting a chance to be 
able to work through this process and whatever we can do to be 
able to help and whatever resources you need or backup that you 
will need to be able to deal with this because it is an 
entirely different issue when drugs are coming through the 
mail, especially as deadly as fentanyl and the proliferation of 
those.
    Mr. Dillingham, thank you for the visit that we have had 
before. I promised you when we visited that every time you see 
me, I will ask you a question about the Census Bureau and the 
IRS partnering together every 10 years.
    April 1, we do a Census every 10 years, but every single 
year, most of the American public interacts with their 
government through a different document on April 15th of that 
year.
    The cost of the Census collection has continued to go up 
and up and up, and as we look for areas of efficiency, it only 
seems to make sense to try to partner, every 10 years, IRS form 
filling with also Census form filling and to see if we cannot 
partner those two together.
    You cannot promise me this is going to happen in 2030. 
Certainly, I would not ask that of 2020, but is that something 
that you will look at to be able to examine is that possible to 
save significant dollars to see if we can partner together in 
2030?
    Mr. Dillingham. Senator Lankford, I appreciate the 
question, and I appreciate your interest. And I think it is 
very important that we consider new approaches and innovative 
ways to constrain costs and to save money.
    And maybe some hypotheticals when I discussed this with 
you, but there may be some new ways of looking at particularly 
your proposal and what might be fashioned as a potential 
solution to an issue of efficiency in Federal Government with 
two agencies with two separate missions.
    Senator Lankford. Sure.
    Mr. Dillingham. One is an enforcement mission, and the 
other is gathering statistics.
    So I understand that people would see and maybe be 
concerned about a conflict there, but there could still be 
perhaps an efficiency in an approach such as you recommend.
    So I would pledge to you that we would look at that. We 
would look at all sorts of options, and from day one, if I am 
confirmed, we will look at cost constraints and novel ways of 
looking at that.
    Senator Lankford. Again, those of us that have the 
privilege of working here in Washington, DC., understand the 
two agencies and the two functions. If I am at home, I get one 
form, and then 2 weeks later, I am filling out a different 
form. And much of that information is the same, and I am trying 
to figure out why I am filling this out twice and mailing 
something to Washington, DC., or emailing it in or going on a 
website and filling this out.
    So to the American citizen, they are going to see this as 
duplication coming up in 2 years because they are doing 
basically the same thing.
    So if there are ways to be able to cooperate together on 
that, whether legislative barriers to that or whatever may be, 
we just need to be able to correct it.
    The American Community Survey, you and I have had some 
conversation on as well. There are a lot of issues. The cost of 
the American Community Survey has continued to skyrocket as 
well. That information is exceptionally valuable to a lot of 
companies and to a lot of agencies to be able to get that 
information, but a lot of it is also commercially available.
    What I would like to do is to be able to encourage you and 
to be able to follow up in the days ahead, if you are willing 
to be able to do this, to be able to look at other places that 
some of that information for the American Community Survey can 
be received privately. That we can buy that data, basically, 
and know that it is reliable and not have to go gather it and 
redo this.
    This is the same issue we are facing with even commercial 
satellites. If you go back to 15 years ago, if there was a 
satellite image, it was U.S. Government-produced. Now private 
companies will give you an image of every square inch of the 
earth every single day because you can buy that data, 
commercially available. So the U.S. Government is now 
partnering with private entities for some satellite images we 
want to get and some others we have to be able to do.
    I am asking just a simple question on the American 
Community Survey, where it exists and we can buy it privately 
and can get that cheaper and not have to have such a long 
American Community Survey that seems rather invasive at times, 
like how many toilets do you have and what time do you leave 
for work. Are there ways to be able to do this so we can 
produce some of it and then buy some of it?
    Mr. Dillingham. Senator, it is certainly my intention, if 
confirmed, to look at that and the potential cost savings with 
the American Community Survey.
    It always involves a balancing of burden versus benefit, 
and as you point out, we have new technologies. We have new 
ways of doing business. We have new information needs.
    So I do think you will find a very receptive response at 
the Census Bureau. The Census Bureau is continuously looking at 
cost savings with the American Community Survey, and rightfully 
so. And I do think that we will work with you and this 
Committee and others in Congress, and we probably would benefit 
from some external views on this. So we would solicit 
information, ideas, and potential innovations from all corners, 
Senator.
    Senator Lankford. Gentlemen, thank you both. Thank you to 
both of your families for stepping up into this role as well. 
It is a big deal.
    I happen to have a daughter whose middle name is Abigail as 
well, and she is watching her dad in public service, and I hope 
she takes on that role as well. So thank you for doing this.
    Mr. Dillingham. Thank you.
    Chairman Johnson. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. I am going to follow up on the families 
theme for just a moment.
    Michael, you mentioned that your wife is overseas at this 
time. How long have you all been married?
    Mr. Kubayanda. Four years.
    Senator Carper. Four years, OK.
    And, Mr. Dillingham, I see your wife is here sitting next 
to--is it Abigail?
    Mr. Dillingham. My wife, Kimberly, and daughter Abigail.
    Senator Carper. How long have you all been married?
    Mr. Dillingham. Approximately about 30----
    Senator Carper. I am sorry to put you on the record.
    Mr. Dillingham. Yes. [Laughter.]
    Senator McCaskill. I sense real trouble.
    Senator Carper. Wait.
    Senator McCaskill. There are some flowers in your future, 
Kimberly.
    Mr. Dillingham. My analytical mind sometimes has----
    Senator Carper. Best answer I have ever heard on this. You 
can stop right now.
    Mr. Dillingham. Approximately 30 years.
    Senator Carper. Not long enough. How is that?
    Mr. Dillingham. Approximately 30. That is exactly right.
    Senator Carper. Let me hear you say that for the record. 
Not long----
    Mr. Dillingham. Senator, not long enough.
    Senator Carper. Thank you so much. That was very good.
    I want to thank seriously Michael. Tell your mom, wherever 
she is, thanks for raising you and imparting the values in you 
for service to our country, and thanks very much to your wife 
for her willingness to share you.
    Mrs. Dillingham, I would say the same thing to you.
    I want to just start off, if I could, on the Postal Service 
for a little bit. Some of us have worked on this for quite a 
while. The man who sat here in this seat, Senator Lankford and 
I, Tom Coburn and I worked on this issue for years. He is over 
in Oklahoma now, but I know he follows these issues. And I 
certainly do with great interest.
    When I was in the Navy during the Vietnam War, we could not 
wait for the mail to come every day. Best part of the day, best 
part of the week was mail call, and we still get mail. Our 
troops still get mail overseas, but it is not the big deal that 
it used to be for all of us. What the Internet taketh away with 
respect to First-Class Mail volumes, the Internet giveth 
something in return. As you know, it is packages and parcels, 
and we have seen double-digit growth in that business for some 
time.
    We have half the number of mail processing centers in this 
country we had 10 years ago. We have roughly half the full-time 
employees we had 10 years ago. We have about a third less post 
offices, full-time post offices than we did 10 years ago. The 
Postal Service has dramatically downsized itself I think to 
right-size the organization.
    The question for some of us is, The products that are being 
handled by the Postal Service, are they actually paying their 
way? The President has raised some concerns about packages and 
parcels, especially with a focus on Amazon that they are not 
paying their way.
    I am told by the Postal Service that they made 6- or $7 
billion last year on the packages and parcels business, which 
would suggest that is not a bad piece of business, and how do 
we continue to grow that?
    I want to just note for year, we have been coming back to a 
major problem for the Postal Service is how do they pay for, 
offset the costs, health care costs for their retirees. And 
that has been an issue faced by States. We faced it when I was 
Governor. It is faced by States and local governments today. It 
is faced by businesses as well.
    Most State and local governments put almost nothing aside 
in order to meet the obligation of health care for their 
retirees. Most Fortune 100 companies do not either. Fortune 500 
companies, they do not set much money aside, if any. Same thing 
with Fortune 1000 companies.
    Having said that, this is an issue that needs to be 
addressed, and I think there is a fiscally responsible way to 
do that, and we will be looking to you and your colleagues for 
some guidance, should you be confirmed. I hope that you will.
    One of our colleagues--I think it was Senator Lankford--
mentioned that consumers are concerned about the price of 
stamps, and they are. The last time I checked stamps in this 
country, we were just a little under 50 cents. It actually 
dropped a penny or so last year.
    Postal stamps in France, 88 cents; Australia, a $1.00; 
Canada, a $1.00. So I still think 48 or 49 cents is not a bad 
deal for the service that we get.
    Let me ask a couple of questions, if I could, for Dr. 
Dillingham.
    If confirmed, you will face almost immediate management 
challenges at the Census Bureau ranging from IT acquisition to 
the need to hire enough enumerators to conduct the 2020 test. 
As it turns out, the Secretary of Commerce used to be an 
enumerator, as you probably know. He is paid better now than 
what he is does, what he is worth, but you never know when 
those enumerators are going to go.
    But what do you believe are the most pressing challenges 
that we face at the Census Bureau? How would you prioritize 
that? What are the most pressing challenges? How would you 
prioritize them?
    Mr. Dillingham. Senator, I appreciate the question. I think 
you really nailed a couple of the priorities and the needs and 
some of the risks at the Census Bureau.
    The IT acquisition, as the Ranking Member pointed out, is a 
major factor for cost escalations, and we want to make sure it 
is done right.
    We understand and look back at prior Decennial Censuses and 
understand that there were in the past some technological and 
IT acquisition challenges, and hopefully, the Census Bureau has 
learned from those.
    You also point out the hiring, and that is going to be of 
great interest. The Census Bureau, if I am confirmed, would 
apply a lot of effort to determining how best to identify that 
workforce and getting them on board. It is a complicated 
business. There is background investigations and other things 
that have to be part of that process.
    But I probably am looking at the challenges facing the 
Census Bureau. I would probably look at certainly the GAO 
reports as well as the OIG reports.
    I think, in a way, we are sort of blessed. Agencies do not 
like to have all their challenges necessarily identified and 
publicized at times, but it is a great service. It really 
relieves the agency of the introspection for doing that.
    In considering the Decennial Census as a high risk in which 
the GAO has done, it has identified several important areas. It 
was mentioned by the Ranking Member, the security of the IT 
system. Certainly, that is foremost in everyone's thinking.
    There is also the public perception, and I know that with 
disagreement on one of the questions, we were interested to see 
how that might impact public perception. What we need to do, 
with whatever the final questions are in the Decennial Census, 
we need to ensure that the media campaign, the communication 
strategy are on track to address those.
    Senator Carper. Hold it right there. My time is about to 
expire.
    Mr. Dillingham. OK.
    Senator Carper. Thank you for those responses.
    Mr. Dillingham. Yes.
    Senator Carper. I am going to also ask you for the record, 
if I do not have a chance to do it here in person. I am going 
to ask you just to identify for us some of the milestones that 
we in Congress ought to be looking at as we approach the 2020 
Census to figure out whether we are on track or not. Do not 
hesitate to come to us early. Do not come to us late. If you 
have a problem, there is something we need to be doing to be of 
assistance.
    Senator Harris has joined us. She and I have been very 
active in writing to Census Bureau acting directors, active in 
writing to the Administration about issues involving questions 
about political interference, some questions on citizenship in 
the 2020 Decennial. We are asking some questions in that regard 
on the record. My guess is she may ask those on the record.
    All right. My thanks to both of you.
    Mr. Dillingham. Thank you.
    Senator Carper. I hope to be around for a second round of 
questions. Thanks.
    Mr. Dillingham. Thank you, Senator.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Well, thank you, Mr. Chairman and Ranking 
Member McCaskill.
    Good morning and congratulations to both our nominees, and 
thank you to our families. I will just add my thanks. It is a 
family affair doing public service, and we are very grateful.
    Mr. Kubayanda, I wanted to start with a question for you 
that is a stakeholder one from my State of New Hampshire, and I 
was very pleased to hear you say just now how important it is 
to collaborate and work with stakeholders.
    I recently heard from the mayor of Portsmouth, New 
Hampshire, about plans to close a downtown post office. The 
city has been working in good faith with the General Services 
Administration (GSA) to acquire the Federal parcel in which the 
post office currently resides, and they have been collaborating 
too on plans for how to remodel the site.
    At a recent city meeting in which residents and business 
owners stress the importance of a downtown post office, the 
Postal Service said that it does not plan to return to the site 
once redevelopment is complete, which would leave this vibrant 
section of the city without a post office. All this, despite 
the fact that the city is willing and eager to work with the 
post office to find an interim site during construction of the 
current parcel and structure terms that will enable the post 
office to remain at the site post-construction.
    Post offices have a long history of serving as community 
hubs and as facilitators of local business, and I have concerns 
about the United States Postal Service bowing out of 
communities that are more than willing to work with them.
    Should you be confirmed, will you look at this issue in 
Portsmouth, and will you work to ensure that the Postal Service 
is doing everything in its power to work with community 
stakeholders to keep post offices in central locations whenever 
possible?
    Mr. Kubayanda. Yes, Senator. I am familiar with that issue, 
not in this particular example, but the Commission has a number 
of vehicles for considering appeals of specific post office 
closings. And that is one vehicle, but then we also have 
vehicles for looking at the issue more broadly.
    So, if confirmed, that will certainly be a high priority of 
mine, and I do think there are things the Postal Service can do 
that may actually make their lives easier in the long run, as 
well as serve their stakeholders better.
    Senator Hassan. Well, that would be terrific. Thank you.
    The other thing I will just mention is there was a very 
good discussion just now with Senator Lankford about the 
Synthetics Trafficking and Overdose Prevention (STOP) Act, and 
I would also ask you, if you are confirmed to--I am a cosponsor 
of that Act. Fentanyl coming into our country is a huge 
problem, and it is killing way too many people, including in my 
State.
    Having said that, there are going to be costs that the post 
office is going to have to expend in order to make this STOP 
Act work, and so I just would ask for your commitment to look 
at the issue of whether the post office will need additional 
funding or help in order to fully enact the STOP Act. Will you 
commit to that?
    Mr. Kubayanda. Yes. If confirmed, I will definitely look at 
that issue and work with your office on it.
    Senator Hassan. Thank you very much.
    Greetings, Dr. Dillingham. It is nice to see you again. I 
enjoyed very much our meeting in my office, and I would like to 
follow up on the discussion we had.
    I appreciated hearing your perspective on how you will help 
the Census Bureau reach its goals if you are confirmed. One 
area we discussed was the possible inclusion of questions 
around citizenship, such as those the Trump Administration has 
suggested and appears to be implementing.
    I worry that the inclusion of these types of questions will 
create a chilling effect on the results and could deter people 
from participating.
    As you know, getting a full and accurate count is part of 
our constitutional obligation and duty, and it is critical that 
when it comes to appropriations, to grant funding in other 
areas of Federal investment, that we actually have accurate 
numbers.
    Do you agree that, if included, this citizenship question 
could hurt participation rates?
    Mr. Dillingham. Senator, thank you for that question, and 
that is a question foremost in many people's minds.
    The Census Bureau has had its best and brightest look at 
this, and they have identified the possibility that there could 
be changes in the responses. And if there are those changes and 
we do not get the immediate responses that we would like and 
anticipate, there are other follow up activities to collect 
that information.
    The most efficient and certainly the cost savings way is 
for the respondent to immediately reply, and actually, if they 
do it electronically, you can also save a lot of money. I know 
that is a challenge in your State.
    Senator Hassan. Right.
    Mr. Dillingham. I can assure you that the Census Bureau 
will apply all of its talents and all of its energies to 
getting a complete count, and they have plans for investing 
more monies in those efforts, including the outreach activities 
you referenced.
    Senator Hassan. Well, I appreciate the outreach activities. 
I am concerned, though, that the way the Administration went 
about this, without coming to Congress, and having us work 
through this issue of whether the question would be a chilling 
question or how best to get at the information we are trying to 
get at, that we have really created a potential question with a 
real chilling effect.
    So, if confirmed, will you commit to working with Congress 
on new questions surrounding citizenship or any other related 
topics?
    Mr. Dillingham. Senator, certainly, we will gain from this 
experience a knowledge. If in fact the question stays in and we 
administer the Decennial Census, there will be a learning 
curve.
    There also has been a learning curve with the American 
Community Survey. That question is in the American Community 
Survey. So we want to make sure that there is a synergy and a 
thorough analysis of how the two fit together. Again, this is 
under the assumption that the question remains in there after 
decision by the courts.
    Senator Hassan. Well, I appreciate that. A number of us 
think that we could have avoided a learning curve by actually 
working on it, the Executive Branch, the Congressional, and the 
Legislative Branch, together, so that we would not be wondering 
whether it is going to have a chilling effect and whether we 
are going to have an inaccurate count as a reason or as a 
result.
    I have one other question, and I only have about 30 seconds 
left. You talked a little bit about some of your priorities, 
Dr. Dillingham, if you are confirmed. Can you just tell me--I 
understand that some of the issues that the Bureau is 
confronting is a lack of planning and a lack of hiring the 
hundreds of thousands of temporary employees who will be needed 
to get this count.
    Do you have plans, strategies about getting enough 
employees to get the count done?
    Mr. Dillingham. Senator, that is a very good question. The 
Census Bureau is looking at that and has contingency plans and 
in fact has been hiring, for example, in the outreach area at a 
record speed as compared to the past Decennial Census. We will 
continue to work and to apprise this body and this Committee of 
the progress in these areas.
    Senator Hassan. Thank you very much, and thank you, Mr. 
Chairman.
    Chairman Johnson. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. I am glad the Members of this Committee 
have an opportunity today to consider a nominee to serve as 
Census Bureau Director. It is a role that has temporarily been 
filled since June 2017.
    Since I joined the Senate, many of us, we have been 
concerned about the 2020 Census and the Census Bureau's lack of 
permanent leader.
    A couple of weeks ago, I think there has been mention that 
my colleagues and I--Senators Carper, Hassan, and Peters--
requested for the second time this year that this Committee 
convene a general oversight hearing focused on the 2020 Census.
    This past March, Commerce Department officials intervened 
to add an untested question to the 2020 Census asking about 
citizenship status, despite warnings, that this question could 
compromise survey accuracy and cost effectiveness.
    Ongoing litigation has since revealed evidence of political 
influence, including White House influence, behind the addition 
of this question.
    There is a pressing need for Commerce Secretary Wilbur Ross 
and the Census Bureau officials to provide sworn testimony to 
this Committee to explain the addition of this controversial 
question and address other 2020 Census concerns.
    And a roundtable briefing is not the same as an oversight 
hearing. Sworn testimony is very different than a casual 
conversation in the area that right now the audience is seated.
    Should you be confirmed, Mr. Dillingham, I hope that this 
Committee will have you back here shortly for an oversight 
hearing to discuss the wide range of 2020 Census concerns in 
much greater depth to ensure that we have an accurate and 
successful count.
    And so, specifically, sir, I have a few questions. As a 
general matter, if a political appointee at the Commerce 
Department or the White House asked you to take an action to 
redesign a Census questionnaire in a way that expert Census 
Bureau staff informed you would make the Census less accurate 
and more expensive for American taxpayers, how would you deal 
with that?
    Mr. Dillingham. Senator, if I understand your question 
correctly, a theoretical question that if I am confirmed and in 
the position at the Census Bureau, that we seek and consider 
all sorts of recommendations, but the way you have presented 
it, as I interpret it, it sounded as though you are talking 
about political interference coming from another level that 
would perhaps improperly affect the process, the scientific 
process of designing questions.
    So while I can assure you that wherever the information, 
ideas, and thoughts might come from, they will probably get 
some consideration at the Census Bureau. But the circumstances 
you describe do not sound to me as though it would be the 
appropriate circumstance, and it would be something that I 
think as Director of the Census Bureau that I would have to 
carefully consider who is asking the questions or making the 
request and for what purpose and to push back if I think it was 
improper influence.
    Senator Harris. And as a general matter, do you believe 
that when a new or modified question is added to the Census 
questionnaire that there should be a contemporaneous, robust 
process to evaluate research and test that question?
    Mr. Dillingham. Senator, I do think that it is very 
important in designing a survey that you bring together the 
experience and information for the right people to make sure 
you are doing the best that you can.
    I am not speaking theoretically to--in some instances, 
there is a history, and the survey questions may be tested in 
other environments. All those things need to be considered in 
the analysis done.
    Senator Harris. But what I am asking you is what do you 
believe is a process that has integrity when you are talking 
about adding a new question. I am concerned and would like to 
know where you stand on the need when there is a new question 
being proposed for the Census, where you stand on the need and 
the importance of testing, researching that question, and the 
potential impact of that question on the result, which is 
hopefully that we have a Census that truly reflects who we are 
as a Nation.
    Mr. Dillingham. I appreciate that, Senator, and I do think, 
as a general proposition, that if confirmed as the Director of 
the Census Bureau that we would bring the best and brightest 
and the most thorough analysis possible to bear on the 
consideration of a new question.
    Senator Harris. Are you aware that numerous experts, 
including Census Bureau Chief Scientist John Abowd and six 
former Census Bureau Directors from both political parties 
believe that the question on the citizenship issue will deter 
voluntary public participation in the 2020 Census? Are you 
aware that that is their position?
    Mr. Dillingham. Senator, I have only access to public 
information, but I have seen the public analysis and the 
presentation of options that were part of the decisionmaking. I 
am aware that there is a number of views with regard to the 
possible impacts, as well as to whether or not----
    Senator Harris. Sir, I am sorry. I only have a minute and a 
half left.
    Mr. Dillingham. Yes. I am aware.
    Senator Harris. So the point here is that there are a 
number of views, perhaps, but the views of the Census Bureau 
Chief Scientist and six former Census Bureau Directors, 
bipartisan group, both political parties, have serious concerns 
about this question?
    So knowing that, are you also aware that the Census Bureau 
has failed to conduct a contemporaneous, targeted research and 
testing on the effect of this question?
    What I am just trying to really understand is, What is your 
perspective on that? Are you concerned at all about that?
    Mr. Dillingham. Senator, I am concerned with all questions 
and particularly in the Decennial Census and the need to get 
the complete and accurate information and will continue to look 
at potential impacts and do the analysis to see if there is 
unexpected impacts or detrimental impacts to a complete and 
accurate Census, that we address those in other ways.
    Senator Harris. Do you believe that that question in 
particular should be tested before it is included in a Census 
that will leave us with information that we will rely on for 
the next 10 years, and so the accuracy of that information 
obviously will have an impact for the next decade in our 
country? Do you believe it should be tested before we do that?
    Mr. Dillingham. Senator, if confirmed, I would certainly 
confer with the experts at the Census Bureau and talk to the 
analysts that you mentioned as well as others in determining 
their best views on that topic.
    Senator Harris. Thank you.
    Chairman Johnson. Senator Hoeven.

              OPENING STATEMENT OF SENATOR HOEVEN

    Senator Hoeven. Thank you, Mr. Chairman.
    Dr. Dillingham, I chair the Indian Affairs Committee, and 
earlier, we held a hearing on the 2020 Census. Obviously, there 
are challenges with getting the accurate count everywhere but 
certainly on the reservation. So how do you intend to get the 
most accurate count? What steps are you going to take in regard 
to Indian Country?
    Mr. Dillingham. Senator, I appreciate that question. It is 
a very good question, and it is a question that has a great 
deal of interest within the Census Bureau and one for which 
there has been considerable planning.
    In your State, I understand there are certain outreach 
activities that might be required that may not in many other 
States, particularly with Native Americans and other groups 
that are hard to reach.
    There has been a comprehensive partnership plan. This 
morning, I was reading over the statement by the Secretary to 
Latino groups in which he addressed many of these issues, 
pointing out that there has been record speed in the hiring for 
the partnership specialists who work with those groups and 
sometimes are members of those groups who help encourage the 
best way to get those groups to complete their Census.
    But there is a number of other technologies that might come 
into play. I understand that some of these outreach activities 
may occur in an environment in which Internet access is limited 
and that sort of thing.
    So I pledge to be briefed on it and see what activities and 
what thinking and what plans are in place and to keep this 
Committee apprised and updated.
    Senator Hoeven. Well, you kind of went to my next question. 
Of course, that is use of Internet.
    People do not realize the incredible diversity when we talk 
about Indian Country. You have some very urban tribes; for 
example, Agua Caliente in California, in the Palm Springs area, 
very urban. But then in States like mine and others, you have 
some very rural areas. So you are going to have to address 
both.
    You talked about the Internet. Great point. There are 
places, of course, again, in rural America where that is going 
to be challenging, and I know you want to use the Internet more 
as part of your Census efforts.
    So I think you are going to have to have clear strategies 
to address the diversity of areas that you are going to be 
dealing with, and I hope you are looking at it in that context.
    Mr. Dillingham. Certainly, Senator, and if confirmed, I 
will look even much further at it.
    Senator Hoeven. All right. Mr. Kubayanda, talk about your 
view of the Postal Service's universal service obligation. This 
goes to the same question I was just asking Dr. Dillingham.
    Universal service. We need to cover everybody, right? Let 
us talk about that for a minute.
    Mr. Kubayanda. Yes, Senator. The universal service 
obligation is the cornerstone of postal policy. I think it is 
basically the reason that we have a public sector postal 
provider, and it goes back to the reason that the Postal 
Service was recognized in the Constitution in the first place.
    So I think further defining universal service and working 
with the Commissioners and working with Congress to fine-tune 
the definition of universal service in the modern era will be 
among my highest priorities if confirmed.
    Senator Hoeven. How do you evaluate keeping rural post 
offices and processing facilities open relative to your cost 
challenges?
    Mr. Kubayanda. One of the issues that the Commission 
considers in a number of different formats, as I mentioned, 
specific post office closings can be appealed to the 
Commission.
    Regarding the processing network, changes that affect 
service on a nationwide basis are issues that the Commission 
weighs in on in advisory opinion reports to the Postal Service, 
and the Commission has made some recommendations to Congress 
about requiring the Postal Service to respond to those advisory 
reports. And I think that is something worthy of consideration.
    I think that, as I mentioned, universal service is the 
cornerstone of public policy, and the reason that we have a 
universal service obligation is to make sure communities that 
otherwise would not be served purely on a commercial basis get 
that service.
    The importance of rural communities cannot be overstated 
with relevance to the universal service obligation.
    Senator Hoeven. Before you get into making decisions about 
closing or moving post offices or closing or moving processing 
centers, are you willing to come out and visit rural areas like 
areas in my State to get a firsthand knowledge of what the 
situation is there and listen to the people?
    Mr. Kubayanda. Yes. If confirmed, I would love to do that.
    Senator Hoeven. All right. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Johnson. Before we move on to Senator Jones, 
Senator Carper would like to acknowledge a couple of people 
from the audience.
    Senator Carper. Thanks so much.
    We have people come and go that service the Census and PRC. 
We also have folks who come and go and serve on our committees 
and subcommittees.
    I think maybe the most enduring Subcommittee in the Senate 
is the Permanent Subcommittee on Investigations, and there are 
two folks who have come to us as details and now return to work 
in the Postal IG's office. One of them is Felicia Hawkins. I am 
going to ask her just to stand up briefly and remain standing. 
She is sitting next to Alex Fisk. Alex has returned to OIG, I 
think, at Postal Service a couple years ago, and I just want to 
say thank you very much for your continued service to our 
country. We are going to miss you guys. Thanks so much.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you for your service. Senator 
Jones.

               OPENING STATEMENT OF SENATOR JONES

    Senator Jones. Does that 30 seconds go against me?
    Chairman Johnson. You got the full 7 minutes. [Laughter.]
    Senator Jones. Thank you, Mr. Chairman, and thank you to 
both nominees for your willingness to be here and for your 
service. I really appreciate it.
    Dr. Dillingham, I want to ask a couple questions about the 
Census. You answered Senator Hoeven's questions. I had very 
similar questions about rural America because 55 out of my 67 
counties are rural. So I would appreciate being updated and 
continuing to be updated on how we are going to reach them 
because there are so many that are also not served by the 
Internet, and it is going to be a real problem.
    The other area that--statistics I have seen show that 
coverage of adults by the Census has improved a good bit since 
1980, but there is still a net undercount of young children. 
And that has been increasing. According to the Census Bureau's 
own data, the 2010 Census missed a million children under the 
age of 5. Because there is so much that depends on the Census 
count, whether it is for congressional seats or for Federal 
funds such as Head Start, Medicare, school lunch programs and 
all.
    Have you looked at or thought about how we can work to make 
sure that the undercounting of children starts going down and 
we can get an accurate count of all the children in America, 
not just the adults?
    Mr. Dillingham. Senator, thank you so much, particularly 
on, first of all, your outreach question. I understand the 
geography of your State is quite diverse, and you have both the 
urban and the rural areas, and probably on football day, you 
have shifts in populations.
    Senator Jones. Yes. They are concentrated in Alabama and 
Auburn, on those days. [Laughter.]
    Mr. Dillingham. Senator, but on the undercount of the 
youth, it is my understanding from the publicly available 
information that the Census Bureau has studied this to date at 
great length, probably more studies to be done, and in fact, 
some of the questions have been revised over time. Particularly 
I think with the grandchildren question, there was some 
revision and improvement.
    So there is training of the people assisting with the 
Decennial Census, and certainly, some people that use the 
telephone option, etc., there is extensive trainings where they 
can probe and help to complete the Census and prevent that 
undercount. But I know it has been targeted as an issue that 
needs to be addressed. If confirmed, I will certainly be 
briefed on it and report back to this Committee our progress.
    Senator Jones. Great. Well, thank you very much for that.
    Also, a report from the GAO in 2017 placed the 2020 Census 
on its high-risk list, and I think you have already mentioned 
the systems, the IT systems, and the cybersecurity readiness.
    Are you convinced--we are now less than 2 years away from 
the 2020 Census--that the Bureau has addressed those GAO 
concerns and their reservations and is ready to start executing 
the Internet-based 2020 Census with--I will not say glitch-
free, but with minor glitches?
    Mr. Dillingham. Senator, that is another excellent 
question.
    From public information and from observing the briefings 
that were public briefings recently as well as public 
materials, significant process has been made.
    The end-to-end test in Rhode Island, for example, there was 
significant process. I think Secretary of Commerce mentioned 
that yesterday to one of the national groups that he was 
addressing.
    The integration of the information technology systems are 
very important, and in that particular test, there was a 
general agreement that the 44 systems that were sort of being 
tested as part of the end-to-end test in Rhode Island performed 
very well.
    But I share with you the concern to make sure that it 
continues to perform well and that we are well prepared in 2020 
for the national application of the various systems within the 
Census Bureau.
    Senator Jones. Great. Well, thank you very much.
    Mr. Kubayanda, I have been somewhat vocal about opposition 
to privatizing the Postal Service. I know it has been a hot 
topic for a long time, and this Administration has raised it 
once again.
    I would like to get your thoughts, just general thoughts as 
you sit here as a nominee, on privatizing the United States 
Postal Service.
    Mr. Kubayanda. The Administration has not put out a 
detailed proposal yet, as you know.
    I think it is important that if I am confirmed I keep an 
open mind on potential solutions to the Postal Service's 
problems.
    I would in general have some concerns about privatization. 
I think there is a very difficult balance in preserving 
universal service to all American communities while making the 
investment opportunity attractive enough for investors. It is a 
hard thing to do, I think, in the American context because of 
the size of our country and the vastness of it.
    So I would have some concerns about how to achieve that 
balance and whether that is possible. So far, I have not seen 
anything that details exactly how to achieve that balance.
    Senator Jones. All right. You really struck the right chord 
that I was hoping. Achieving that balance is going to be I 
think the real key, if it is even possible to do that.
    So, with that, I did not even need that extra 30 seconds, 
Mr. Chairman.
    Thank you very much to both of you. Thank you.
    Chairman Johnson. You used the time well. Senator 
McCaskill.
    Senator McCaskill. Dr. Dillingham, I am really concerned 
about cybersecurity.
    Mr. Dillingham. Yes.
    Senator McCaskill. If we had a breach of Census data, it 
would permanently affect the capability of this country to 
gather essential data in the future, and I think many Americans 
do not realize how important that data is in terms of many 
decisions that directly impact their lives.
    The Chairman and I have been part of briefings on what our 
government is doing, both through DHS and the Department of 
Defense (DOD) and other agencies, but primarily those two in 
terms of our cybersecurity mission in this country for both 
economic security as it relates to national security and also 
things like election security and just combating the cyber wars 
that have been committed against us.
    I would ask you as to what you think you need to do 
immediately since GAO has identified high-risk issues at 
Census.
    We are told by the staff that it is going to begin this 
coming spring. I am trying to figure out why we are waiting 
until next spring. We have the capability within DHS and DOD 
right now, if they are assigned the mission by this 
Administration, to do all-hands-on immediately to make sure 
that the steps have been taken to make the system secure.
    Mr. Dillingham. Ranking Member, that is an excellent 
question. It is one I think is foremost on probably all the 
members' minds as well as others throughout the government and 
the American public, and that is how well can we protect the 
privacy of individuals, the confidentiality of information, and 
to prevent some of the cybersecurity risk that you identified.
    I only have access to the public information and have not 
received some of the briefings that I am sure this Committee 
has, but as you pointed out, the Census Bureau welcomes the 
involvement and the relationships and collaboration with the 
other agencies you mentioned and the intelligence agencies and 
those with expertise in this area.
    I am informed generally from publicly available information 
that significant process is under way. That also some of the 
best talents even from the private sector is being brought to 
bear on this issue.
    But it is an issue we have to remain vigilant about, and I 
think in government and the private sector, with all these 
important datasets, the security is foremost in everyone's 
mind.
    What I would do, Senator, is to probably be read into some 
of the specifics that you mentioned and would like to be 
briefed on this.
    Generally, I will say that from the management reviews that 
have been conducted, the Census Bureau is reporting their 
progress and their confidence in many of the security 
protections being put into place--the encryption, putting the 
data immediately behind the wall in the vault. All these 
things, I think contribute to the safety of the data, yet we 
still need to make sure that we have the plans in place as well 
as the resources to accomplish that mission.
    Senator McCaskill. Well, I would think one of your first 
tasks would be to sit down with Cyber Command at DOD and with 
the appropriate personnel at DHS and ask them how best to move 
forward, for them to come in and do their own independent 
analysis of the safety. So that if there are problems, we do 
not have to wait until midyear next year to get them solved, 
and I will look forward to hearing back from you on that.
    Mr. Kubayanda, do you support cuts to USPS mail delivery 
service or the number of delivery days?
    Mr. Kubayanda. Those are issues primarily for the Postal 
Service Board of Governors. However, to the extent that they 
impact service, that is something that we need to oversee and 
weigh with an open mind.
    Senator McCaskill. So, in other words, you do not know?
    Mr. Kubayanda. Yes. Until I am presented with a specific 
issue, if confirmed, it is hard to weigh in on the specifics.
    Senator McCaskill. Well, I got to tell you, I respectfully 
disagree. I think you have to come to this job deciding whether 
or not you think the number of delivery days, it can be cut 
back, whether the universal service obligation means the same 
service for someone in a rural community as it does for someone 
who lives in an urban area or if somehow universal has two 
different definitions.
    I do not see how a service obligation that is universal has 
one standard for people who live in the city and another 
standard for people who live in the country. So I would ask you 
to reconsider your uncertainty in that area and determine what 
is the definition of a universal service obligation. Is it 
different, depending on where you live?
    I think that is, frankly, hard to reconcile, and I am 
disappointed that at this point are not willing to express that 
clearly.
    Mr. Kubayanda. I do think rural and urban communities need 
to receive the same level of service. I think that is clearly 
an element of universal service. What exactly that service 
looks like is something that, if confirmed, I would work with 
you and with my fellow commissioners to look at very closely. I 
think we need to further define universal service going 
forward.
    Senator McCaskill. One of my constant harangues with the 
Postal Service is the co-op petition arrangements with its 
direct competitors. I have said over and over again that it is 
a weird business model where you give a good deal to your 
competitors for the most expensive part of your operation.
    I know the pressure on volume. It is concerning to me that 
the Postal Service is charging--whether they are charging 
United Parcel Service (UPS) and Federal Express (FedEx) as much 
as it could.
    The Postal Service has refused to comply with my request 
for copies of the contracts. ``Trust us'' is what they have 
told us.
    I understand the Postal Regulatory Commission has confirmed 
that most of the time, these agreements at least cover costs, 
but that is not really the issue. Whether or not they cover 
costs should not be the measure. It is whether or not they are 
in the best interest financially of the Postal Service.
    I have had one of the companies actually tell me outside of 
this hearing room that the Postal Service has no idea whether 
or not they are maximizing profits off these agreements, and 
this is coming from the one that is getting the good end of the 
deal.
    So you share my concern that the Postal Service may not be 
getting the best deal available in their rush toward their 
concern on volume and not toward profitability?
    Mr. Kubayanda. That is a very important concern, and it is 
something that, if confirmed, I would want to take a look at.
    I am one of the many people who have not seen those 
contracts myself, and so it is hard for me to state what 
exactly could be in them. But, if confirmed, that will be a top 
priority.
    Senator McCaskill. Will they let you look at them once you 
are confirmed?
    Mr. Kubayanda. I believe so.
    Senator McCaskill. Well, that would be good.
    Mr. Kubayanda. Yes.
    Senator McCaskill. They sure will not let anybody else see 
them, which is weird to me. It would be one thing if they could 
say, ``Well, we are making money on it, and we do not want to 
show you because we do not want to expose to one competitor the 
money we are making off the other one.'' But they will not make 
representations if they are making money off of it. So what we 
are doing is we are upping the profitability of our competitor. 
It is just bizarre. Only in government does this happen.
    So I would look forward to you getting back to me on that, 
and that is all of my questions.
    Chairman Johnson. Thank you, Senator McCaskill.
    By the way, I will reinforce the point you just made that 
it has been very difficult to get information out of the Postal 
Service, and if you are going to solve this problem, you need 
accurate information. That is why it took me quite a few years 
just to put together a relatively simplified income statement 
to kind of get a grasp on what is pulling off here.
    When it comes to urban rural, again, a piece of information 
that I would hope the task force develops, just so we know, to 
what extent are urban customers subsidizing the service within 
rural? Not saying that they should, not saying that it should 
not be completely identical service. A piece of information we 
ought to have is to what extent does that cost the Postal 
Service money. Again, just basic information to be able to take 
a look and solve a problem.
    Other information I want to talk about, other than ask you 
to work with us, if confirmed to the Postal Regulatory 
Commission, to get this information, but one of the things I 
have been looking at, when you look at the profitability, to 
what extent has the Postal Service increased its prices 
relative to competition?
    The information we have gleaned, not from the post office, 
but from the PRC, is on parcel. This is both ground and air. 
Both UPS and FedEx have increased prices since 2007, a pretty 
narrow band. Some are between 76 and 89 percent. On parcel for 
the Postal Service, they have increased prices somewhere 
between 50 and 88 percent. So, on the top band, they are 
relatively competitive, but on the lower band, about 50 
percent.
    What is actually pretty remarkable is on first class, where 
they have a monopoly market--let us face it, monopolies have 
the ability to raise prices regardless--only increased prices 
about 16 to 17 percent since 2008. Do you want to just make 
that commitment to help to work with us to get this 
information? Do you have any comments on that? I know we spoke 
about this in my office a couple of days ago.
    Mr. Kubayanda. I think that obviously many areas of pricing 
are within the purview of the Commission in an oversight role, 
and that is something I want to take a look at closely.
    We have some vehicles. The Commission does have some 
vehicles to make recommendations to Congress as well, if any 
legislative changes are merited, and so that is something I 
will work with you to take a look at.
    Chairman Johnson. Do you think looking within the private 
sector, where there is competitive situations, is that a 
relevant comparison?
    Mr. Kubayanda. Absolutely. I think it is a very relevant 
comparison.
    Chairman Johnson. Mr. Dillingham, when we talked--again, I 
think you have seen the GAO reports, correct?
    Mr. Dillingham. Yes, sir.
    Chairman Johnson. There are many issues facing this Census. 
They are held over from many years ago that you are going to 
have to be dealing with.
    The good news is some progress has been made, but there is 
still a lot of outstanding issues. When we spoke, one of my 
biggest concerns, having traveled around Wisconsin for the last 
7.5 years, not one manufacturing plant, cannot hire enough 
people. I would say there is not one main street in Wisconsin 
that you can go down where there are not Help Wanted signs in 
just about every business front window.
    We are at 3.9 percent unemployment nationally. Wisconsin is 
less than 3 percent. I think hiring the people you are going to 
need, the enumerators, is going to be real challenging.
    By the way, maybe one of the incentives, you can talk about 
how being enumerated can lead to being Commerce Secretary. That 
is kind of an interesting comment.
    But can you just speak to really the challenge of hiring 
the workforce you are going to need to be able to take the 
Census?
    Mr. Dillingham. Mr. Chairman, thank you for asking that 
question. It is again foremost on many minds.
    It certainly will be. The hiring of the enumerators during 
the Decennial Census and to conducting it has been described as 
the largest employment program since World War II, and when you 
are hiring, even on a temporary basis, hundreds of thousands of 
excavation, it is a mammoth responsibility.
    I am informed from public information that the plans are 
there. Progress is being made, and it appears to be at this 
time on schedule.
    However, as you point out, we are in a different economy 
these days, and it could be that some of the planning may need 
revision as we learn more, and there may be a need for sort of 
innovative thinking.
    Some of the things you pointed out--and I have sitting here 
next to me someone from the Postal Service--what is the 
potential role of the Postal Service? I know that has been 
discussed and studied many times, but there are other groups 
that may be available.
    I have here today the Director of the Peace Corps, and they 
have return Peace Corps volunteers that may be looking for 
employment. And they may well be positioned.
    And I just point to those by way of example, but I do think 
it would be very important to identify groups that may be 
ready, willing, and able to assist with enumeration and then 
figure out how quickly they can be brought on board.
    Chairman Johnson. You are going to have to pull out all the 
stops and use your imagination. I think that is a good idea.
    Listen, there have been a number of issues raised. I want 
to associate myself with Senator Lankford looking at the use of 
the IRS, and that could be through electronic filing, making 
sure the forms are identical, and then it could be just a 
voluntary system. So there are many things you can do.
    Certainly, I have raised the issue of the overall cost, 
cost per household. We have raised the citizenship questions, 
as I knew we would.
    If confirmed, let me repeat what I said in the opening, 
though. Eighteen months before this begins, there are so many 
challenges you need to overcome. We just talked about the 
hiring. I really do want you to focus on that issue. How do we 
take the Census? How do we get the highest response rate? How 
do we get the greatest deal of accuracy?
    And then following the Census, then really start turning 
your attention to these other issues, but we have to do it 
right away. We do not want to wait, again, 2 or 3 years before 
this and then it is too late, and we have all these problems. I 
really hope you organize your managerial emphasis, your 
priorities. Let us get the Census taken, but as soon as that is 
done, we start moving into making the 2030 Census far more 
efficient, utilizing all the opportunities we have, whether it 
is the IRS, where there is greater technology, start bringing 
down these costs. This really ridiculous.
    Again, thank you for your willingness to serve.
    Senator Daines, you have some questions.

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. Thank you, Mr. Chairman.
    It has been discussed a lot today about citizenship in the 
2020 Census. Before we get into my questions, I want to thank 
both of the nominees for coming here today and for your 
willingness to serve our Country in these very important 
capacities.
    Dr. Dillingham, as you know, the Census data is critical. 
It is a valuable tool utilized by all levels of government, by 
academia, as well as the private sector. I believe your 
firsthand experience and background in all these areas would 
serve you well in leading the Census Bureau.
    You mentioned the importance of public service to your 
family and to yourself. Your wife and mother-in-law were public 
school teachers. Your daughter is currently teaching.
    I can tell you my wife, Cindy, has a degree in elementary 
education. She has taught. My daughter graduated with a degree 
in elementary education. So I appreciate how important our 
teachers are. I live it every day to the next generation, as do 
you.
    I want to talk about, though, this issue of citizenship in 
the 2020 Census. This data is so important, as we have worked 
to develop policies for our Country, having an understanding of 
something as fundamental as how many citizens and noncitizens 
are in the Country. I think that is essential.
    In fact, it was Thomas Jefferson, the first Director of the 
Census, back in 1790. He suggested keeping track of citizenship 
status because it enables a more detailed view of the makeup of 
our Country, and I agree with that. I do not think that is an 
unreasonable position to take.
    We must make sure the taxpayer dollars are distributed 
fairly and that U.S. citizens are properly represented in 
Congress. Of course, while the Census counts each resident of 
the Country, my job is to represent the citizens of Montana and 
to ensure the citizens-of-Montana's voice is heard here in 
Washington, DC. I believe citizens in Montana should have more 
of a say in Washington, DC., than illegal immigrants harboring 
in sanctuary cities across the country. And having a breakdown 
of citizens and noncitizens in our Country is common sense, 
especially given the millions of illegal immigrants who are in 
our Country today.
    Dr. Dillingham, do we know how many citizens we currently 
have in the United States?
    Mr. Dillingham. Senator, that is an excellent question. It 
is one that many people are interested in.
    We do collect, currently, information on citizenship 
through the American Community Survey. It was inserted again, 
at least that is the plan, for the Decennial Census as well.
    Senator Daines. So are these surveys as accurate as the 
Census?
    Mr. Dillingham. Senator, I think that they are very 
accurate surveys depending on their methodology, and I do think 
that is a consideration beyond the decision to add it to the 
Decennial Census is to get one more measure. And then, of 
course, the experts in the Census Bureau can look at it and try 
to determine if this results in a more accurate measurement.
    Senator Daines. Would not the best data come from the 
Census if we were able to determine citizens and noncitizens 
through the Census?
    Mr. Dillingham. Senator, it certainly would provide another 
measure of citizenship.
    Senator Daines. Do you support including a citizenship 
question in the Census, and if so, what benefits might come of 
it?
    Mr. Dillingham. Senator, I have no plans to voice an 
opinion on that question. I think it would not be advisable in 
my position, if I am confirmed to be the Director of the Census 
Bureau.
    The decision, as I understand, it will be determined by the 
courts, and it would be my responsibility, if confirmed, to 
administer the Decennial Census in accordance and consistent 
with that judicial decision. So it would be problematic, I 
think, to take a public position on that question.
    Senator Daines. Like the Chairman of this Committee, I 
spent my career in the private sector before coming to Capitol 
Hill. I have an engineering background, taught to solve 
problems, look at numbers, view the world through a 
quantitative lens when possible, and I do believe having 
additional data on something as fundamental as citizenship 
could help Congress better understand the makeup of our States 
and assist us in making better policies.
    Dr. Dillingham, Montana is home to 12 federally recognized 
tribes, and the State recognized Little Shell Tribe, each which 
are a fundamental part of our State and our Nation's history. 
Historically, Native Americans have been undercounted in the 
Census.
    Under your leadership, how will the Census Bureau engage 
with Indian tribes such as those in Montana to ensure an 
accurate population count and proper representation?
    Mr. Dillingham. Senator, I understand, particularly with 
the geography of Montana and the dozen tribes that you said are 
within that State, that it is quite a challenge that needs to 
be met.
    So the outreach activities alluded to earlier in this 
hearing and the partnership activities are very much a part of 
that equation.
    In some instances, that we actually hire partnership 
specialists sometimes from the tribal communities to 
participate and assist in the outreach to those communities.
    At the same time, we just deploy all of our technologies in 
terms of mapping, etc., to assist in this process. There are 
communication strategies, but some of those communication 
strategies--for example, the media campaigns and stuff may not 
reach adequately some of the populations that you are concerned 
with.
    So what I can assure you is that this is being examined. 
This is being looked at. We hope that by achieving efficiencies 
in one area, for example, the electronic responses, that maybe 
some of those resources can be deployed to the hard-to-reach 
populations and the hard-to-count populations. We would be glad 
to work with you and other Members of this Committee because 
there are many States that to differing degrees that have that 
challenge.
    Senator Daines. Dr. Dillingham, you brought up the remote 
nature of parts of Montana and Indian Country and just the 
rural culture that we have.
    I want to switch gears before I run out of time here and 
ask a question of Mr. Kubayanda. The Postal Service is critical 
to rural communities in Montana. When you think about the 
Postal Service, when you live a long ways away from town, you 
do not go into town to get your prescription medications. The 
Postal Service comes to you to deliver that, and oftentimes, 
weather challenges and so forth, the rural postal delivery is 
critically important.
    I am concerned the challenges that the organization 
continues to face that will lead to USPS failing to meet its 
commitment to Montanans particularly in our rural areas.
    As you know, the Board of Governors for the Postal Service 
still has an inadequate number of members. In November of last 
year, I joined in a letter to the Administration urging them to 
move quickly in nominating qualified members.
    My question is, Could you discuss the difficulties you 
foresee in working with a board of Governors that remains 
significantly understaffed?
    Mr. Kubayanda. If confirmed, I look forward to sitting down 
with the two new Governors who have been confirmed, but I think 
it is important that the board is filled for a number of 
reasons. It is really difficult for the Postal Service to 
engage in sort of the long-term planning that a lot of us have 
called for in the postal community without knowing what the new 
potential Governors, what direction they might go in, and I 
think there are certain responsibilities that the board 
dwindled and lost their quorum, they enacted some procedures so 
they could function sort of in a skeletal way. But I think 
having a fully functional board that is fully staffed will be 
absolutely critical going forward as we lay all these important 
issues on the table for the Postal Service.
    Senator Daines. Thank you.
    Chairman Johnson. Thank you, Senator Daines.
    Again, I want to thank the nominees and your families for 
your willingness to serve. These are important positions, and 
we certainly want to move these nominations through the process 
as quickly as possible.
    The nominees have made financial disclosures and provided 
responses to biographical and prehearing questions submitted by 
the Committee. Without objection, this information will be made 
part of the hearing record,\1\ with the exception of the 
financial data, which are on file and available for public 
inspection in the Committee's offices.\2\
---------------------------------------------------------------------------
    \1\ The information submitted by Mr. Dillingham appears in the 
Appendix on page 40.
    \2\ The information submitted by Mr. Kubayanda appears in the 
Appendix on page 121.
---------------------------------------------------------------------------
    The hearing record will remain open until noon tomorrow, 
October 4, with the submission of statements and questions for 
the record.
    This hearing is adjourned.
    [Whereupon, at 11:39 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
